FILED: January 21. 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-362
(5:19-cv-00330»BO)
In re: ARTHUR O. ARMSTRONG,
Petitioner.

O R D E.R
Arthur O. Armstrong seeks leave to appeal the district -court's order and judgment
dismissing his complaint Because the district court did not certify aa appeal from the
order and judgment would not be frivolous, the court denies Armstrong’s morion..
Entered at the direction of the panel: Judge WilMsstea, Judge Motz, and Judge Km§,

'A

- ,,
*7

..........

t
*

y .'EGrf&e Cc
" A4'" ". A"5
V ' As/ Patr.cid A dcnnor.- Clerk
-

’

mm

v5>

APPE/VDLX A

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
WESTERN DIVISION
No. 5:19-CV-330-BO
ARTHUR O. ARMSTRONG,
Plaintiff,
v.
WILSON COUNTY, CALVIN WOODARD,
NASH COUNTY, KEITH STONE,
MAGISTRATE’S OFFICES, JOHN DOE, JIM
COE,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)

ORDER

This matter is before the Court sua sponte on plaintiffs complaint and the Court’s
permanent pre-filing injunction. For the reasons that follow, plaintiffs complaint is dismissed and
he is sanctioned in the amount of $1,200.00.

BACKGROUND
In August 2019, plaintiff initiated this action against Wilson County and Nash County,
their respective sheriffs, Calvin Woodard and Keith Stone, and, it appears, one or more unnamed
magistrate judges. [DE 1], Plaintiff appears to allege at least 22 separate constitutional injuries,
brought pursuant to 42 U.S.C. §§ 1985 and 1986, stemming from his February 2019 arrest. Id.
Plaintiff is a well-known serial litigant. See Armstrong v. Virginia, No. 3:10-CV-802-REP,
2011 WL 1261628, at *4, 7 (E.D. Va. Mar. 16, 2011) (cataloguing plaintiffs actions and notice
that he “may be the most prolific serial-filer in the United States”). In March 2013, the Court
i

entered a superseding permanent injunction against plaintiff, prohibiting him from filing any
documents, even if he’s paid a filing fee, unless the Court concludes that his complaint
“specifically identifies] the law(s) which Armstrong alleges was (were) violated, and ... allege[s]

Case 5:19-cv-00330-BO Document 4 Filed 08/16/19 Page 1 of 4

AppFVDijr B

all facts with specificity.” Armstrong v. Woodard, No. 5:12-CV-805-F, DE 26 (E.D.N.C. Mar. 29,
2013). Thus, before plaintiffs case goes forward, the Court must review the allegations in
plaintiffs complaint and determine whether he has complied with the requirements of the
superseding permanent injunction.
DISCUSSION
“[Fjrivolous complaints are subject to dismissal pursuant to the inherent authority of the
court, even when the filing fee has been paid.” Ross v. Baron, 493 F. App’x 405, 406 (4th Cir.
2012) (per curiam) (citing Mallard v. U.S. Dist. Court, 490 U.S. 296, 307-08 (1989)). The
superseding permanent injunction requires this Court to determine whether plaintiff “specifically
identifies] the laws which Armstrong alleges was (were) violated” and determine whether plaintiff
has “allege[d] all facts with specificity.” Armstrong v. Woodard, No. 5:12-CV-805-F, DE 26
(E.D.N.C. Mar. 29, 2013). If plaintiff has, the Court must then decide if the complaint “is not
otherwise repetitious or frivolous.” Id. If the Court concludes that plaintiff has not specifically
alleged which laws were violated and has not alleged all facts with specificity, or has filed an
otherwise repetitious or frivolous complaint, then the Court “will dismiss the complaint and will
sanction Armstrong in an amount three times the district court filing fee.” Id. (emphasis in
original).
A complaint must state a claim for relief that is facially plausible. Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 570 (2007). Facial plausibility means that the court can “draw the
reasonable inference that the defendant is liable for the misconduct alleged,” as merely reciting the
elements of a cause of action with the support of conclusory statements does not suffice. Iqbal,
556 U.S. at 678. The Court need not accept the plaintiff s legal conclusions drawn from the facts,
nor need it accept unwarranted inferences, unreasonable conclusions, or arguments. Philips v. Pitt

2

Case 5:19-cv-00330-BO Document 4 Filed 08/16/19 Page 2 of 4

County Mem. Hosp., 572 F.3d 176, 180 (4th Cir. 2009). “[A]pro se complaint, however inartfully
pleaded, must be held to less stringent standards than formal pleadings drafted by lawyers.”
Erickson v. Pardus, 551 U.S. 89, 94 (2007) (per curiam) (quotation omitted). But Erickson does
not “undermine [the] requirement that a pleading contain ‘more than labels and conclusions.’”
Giarranto v. Johnson, 521 F.3d 298, 304 n.5 (4th Cir. 2008) (quoting Bell Atlantic, 550 U.S. at
555).
Upon careful review of plaintiffs complaint, the Court is compelled to conclude that
plaintiff has not alleged all facts with specificity and, moreover, has filed a complaint that is
generally frivolous. First, plaintiffs complaint contains only vague allegations that defendants
“acted in a conspiracy” and “failed to conform to the requirements of the federal constitution and
laws of the United States” in arresting him and detaining him. [DE 1, p. 3]. Plaintiff alleges a
litany of constitutional violations, repeatedly citing the Fourth and Fourteenth Amendments, and
goes so far as to accuse defendants of “arbitrariness, capriciousness, fraud, malice, trickery,
harassment, falsity, gross negligence, deceit, RICO, carjacking, kidnapping, extortion, pattern of
racketeering activity and obstruction of justice.” Id. But plaintiff does not allege the factual basis
for his myriad claims with anything resembling specificity.
Second, plaintiffs complaint is frivolous. Plaintiffs complaint contains many of the
same conclusory, boilerplate legal assertions that his previous complaints have included. See
Armstrong v. North Carolina, 5:13-CV-627-D, DE 1 (E.D.N.C. May 27, 2014) (alleging that
defendants engaged in a conspiracy when they “failed to conform to the requirements of the
federal constitution and laws of the United States” and acted with “arbitrariness, capriciousness,
malice, fraud, extortion, defamation, gross negligence, trickery . . .”). These cursory allegations,
coupled with the near-complete lack of factual content, do not plausibly state any claim upon

3

Case 5:19-cv-00330-BO Document 4 Filed 08/16/19 Page 3 of 4

which relief can be granted. Moreover, plaintiff is once again suing Calvin Woodard, whom he
has unsuccessfully attempted to sue numerous times in the past. See, e.g., Armstrong v.
Woodard, 5:12-CV-805-F (E.D.N.C. Mar. 3, 2013); Armstrong v. Woodard, 5:12-CV-807-F
(E.D.N.C. Mar. 3, 2013). Plaintiffs complaint is frivolous and does not comply with the Court’s
pre-filing injunction.
Accordingly, consistent with the Court’s superseding permanent injunction, plaintiffs
complaint must be dismissed and he must be sanctioned in the amount of three times the filing
fee. As such, plaintiff is sanctioned in the amount of $1,200.00. Additionally, consistent with the
injunction, the Court concludes that an appeal from this order would be meritless and that no
further filings in this case will be accepted.
CONCLUSION
For the above reasons, plaintiffs complaint is DISMISSED and plaintiff is SANCTIONED
in the amount of $1,200.00. The Clerk is DIRECTED to close the case.

SO ORDERED, this

day of August, 2019.

TERRENCE W. BOYLE J
CHIEF UNITED STATES DISTRICT JUDGE

4
Case 5:19-cv-00330-BO Document 4 Filed 08/16/19 Page 4 of 4

FILED: February 25, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-362
(5:19-cv-00330-BO)

In re: ARTHUR O. ARMSTRONG
Petitioner

ORDER
The court denies the petitions for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.

Judge King.
For the Court
/s/ Patricia S, Connor, Clerk

Constitutional and Statutory Provisions Involved
fourteenth amendment

its jurisdiction the equal protection of the law.
FOl IRTH AMENDMENT
Sri^res to be conducted on upon issuance of a warrant juridically sanctioned by probable cause
supported by an oath or affirmation particularity describing the place to be searched and the person or
thing to be seized.
Every person who is under color of any statute, ordinance, regulation, custom , usage
491I.S.C. 1983
caused to be subjected any citizen of the United
States orcrther persorfwithitfffie jurisdiction thereof to the deprivation of any rights privileges or
i"s«uSTy *e Cons,.Lion and laws shall be liable to fee party injured m an aeon at law.
suit in equity or other property proceeding for redress.
49 US C. 1985 &1986

If rtvo or more persons conspire to prevent by force, intimidation, or threats; in the
of
such a conspiracy where two or more persons conspired to go in disguise on the highway o
premiseffieSr the purpose of depriving,either directly or indirectly the equal protection of the law,
or of equal privileges and immunities under the law;or for the putpose of preventmg or hmdermg the
constitmed authorities within any State or Territory from giving or securing to any citizen within y
State or Territory the equal protection of the law shall be liable to the party injured in an action law,
suit in equity or other proper proceeding for redress.
Rule 56 (a) Summary Judgment - A party may moves for summary judgment on which judgment is
sought. The court shall grant summary judgment if the movant shows that there is n°'
6
as to any material fact and that the movant is entitled to judgment in his favor as matter of law.
Judgment
60(b)(6) states that a court may grant relief 6om a judgment on any
Rule
the operation of the judgment. Relief under Rule 60(b)(6) ,s extraordinary relief, and i, is granted m the
interest of justice. This rule is essentially one of equity and fairness.
Rule 15(a) Amendments. A party may amend the party's pleading once as a matter of course at any time
before a responsive pleading is served.

hwenoix o

